OIG Investigative Reports, Harvey Schools Chief Gets Jail Term for Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
For Immediate Release
Chicago, May 13, 2004
Chicago Sun-Times
By FRANK MAIN Crime Reporter
e-mail: fmain@suntimes.com
Harvey Schools Chief Gets Jail Term for Fraud
A south suburban school president and her son were sentenced Wednesday to 180 days in jail for defrauding a college financial aid program.
Janet Thomas, president of Harvey District 152 and a Bloom Township High School teacher, also was ordered to pay a $7,000 fine and repay $10,525 she obtained for her son in fraudulent school grants. Her son, Derrick Fomby, must pay a $3,000 fine and help repay the grants.
Stephenson County Judge Charles Hartman ordered the mother and son to report to jail May 24. They were convicted March 10. Thomas was convicted of falsifying her income to help her son obtain grants to attend Highland Community College in Freeport from 1998 to 2001. She was earning $80,000 a year and receiving money from 10 rental properties.
Fomby admitted on the stand during his mother's trial he used some of the grant money to buy personal items such as gym shoes.
"It is very distressing that an educator stole from funds that are intended to help students whose families did not enjoy the same financial prosperity that she did," said Attorney General Lisa Madigan, whose office prosecuted the case.
Thomas also had worked for Harvey Mayor Eric Kellogg's administration, heading the city's Work Force Investment Act program for about $17,000 a year. Kellogg is an assistant superintendent in Harvey District 152.
Fomby got a job from Kellogg as superintendent of the city's Metra and Pace parking lots for about $33,000 a year. "We will need to terminate their employment," mayoral spokeswoman Sandra Alvarado said.
Top
Printable view
Share this page
Last Modified: 02/28/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov